Case: 19-14252

Date Filed: 02/10/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14252-E
CARLTON BUTLER,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Georgia

ORDER:
Carlton Butler moves for a certificate of appealability in order to appeal the district court’s
denial of his 28 U.S.C. § 2255 motion to vacate. Butler’s motion for a certificate of appealability
is DENIED because he has failed to make a substantial showing of the denial of a constitutional
right. See 28 U.S.C. § 2253(c)(2). Accordingly, his motion for leave to proceed informa pauperis
is DENIED AS MOOT.
/s/ William H. Pryor Jr.
UNITED STATES CIRCUIT JUDGE

* '

1^ h | ^ h.

k

w

I
b

Case 5:16-cr-00016-MTT-CHW Document96 Filed 09/23/19 Page lot2

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
CARLTON M. BUTLER,
Petitioner,

)
)
)
)
)

)

v.
UNITED STATES OF AMERICA,
Respondent.

CIVIL ACTION NO. 5:16-CR-16 (MTT)

)
)
)
)
)
)

ORDER
United States Magistrate Judge Charles H. Weigle recommends the Court deny
Petitioner Carlton Butler’s motion to vacate, set aside, or correct his sentence pursuant
to 28 U.S.C. § 2255 (Doc. 85). Doc. 89. The Magistrate Judge also recommends
denying a certificate of appealability for failure to make a substantial showing of the
denial of a constitutional right. Id. The Petitioner has filed an objection. Doc. 94.
Pursuant to 28 U.S.C. § 636(b)(1), the Court has considered the Petitioner’s
objections and has made a de novo determination of the portions of the
Recommendation to which the Petitioner objects. In his objection, the Petitioner largely
repeats his arguments made in his motion and states his disagreement with the law
applicable to his case. Compare Doc. 85 with Doc. 94. After review, the Court accepts
and adopts the findings, conclusions, and recommendations of the Magistrate Judge.
The Recommendation (Doc. 89) is ADOPTED and made the Order of the Court, and
the Petitioner’s motion to vacate, set aside, or correct his sentence is DENIED.
Additionally, a certificate of appealability is DENIED. Because there are no nonfrivolous issues to raise on appeal, an appeal would not be taken in good faith. See 28

Case 5:16-cr-00016-MTT-CHW Document 96 Filed 09/23/19 Page 2 of 2

U.S.C. § 1915(a)(3). Accordingly, any motion to proceed in forma pauperis on appeal is
also DENIED.
SO ORDERED, this 23rd day of September, 2019.
SI Marc T. Treadwell
MARC T. TREADWELL, JUDGE
UNITED STATES DISTRICT COURT

-2-

Case 5:16-cr-00016-MTT-CHW Document 97 Filed 09/23/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
*

CARLTON M. BUTLER,

*

Petitioner,

Case No. 5:16-CR-16-MTT-CHW-001

v.

*

UNITED STATES OF AMERICA,

*

Respondent.

*

JUDGMENT
Pursuant to this Court’s Order dated September 23, 2019, and for the reasons stated
therein, JUDGMENT is hereby entered in favor of Respondent.
This 23rd day of September, 2019.
David W. Bunt, Clerk
s/ Vanessa Siaca, Deputy Clerk

Case: 19-14252

Date Filed: 03/26/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14252-E
CARLTON BUTLER,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Georgia

Before: WILLIAM PRYOR and ROSENBAUM, Circuit Judges.
BY THE COURT:
Carlton Butler has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c) and
27-2, of this Court’s February 10, 2020, order denying a certificate of appealability and leave to
proceed in forma pauperis in his appeal of the district court’s denial of his pro se 28 U.S.C. § 2255
motion to vacate. Upon review, Butler’s motion for reconsideration is DENIED because he has
offered no new evidence or arguments of merit to warrant relief.

